APPENDIX

Justin Mertis Barber
v.
Secretary, Florida Dept. of Corrections, Florida Attorney General
APPENDIX
INDEX TO APPENDIX
A. Eleventh Circuit Court of Appeals Order denying request for certificate of
appealability filed June 16, 2020
B. United States District Court, Middle District of Florida, Order [Doc. 30] denying
a certificate of appealability and Judgment [Doc. 31] filed November 12, 2019
C. Eleventh Circuit Court of Appeals Order filed July 20, 2020, denying motion for
reconsideration

APPENDIX
A

Case: 19-14881

Date Filed: 06/16/2020

Page: 1 of 2

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-14881 E
JUSTIN MERTIS BARBER,
Petitioner-Appellant,
versus
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
ATTORNEY GENERAL, STATE OF FLORIDA,
Respondents-Appellees.
Appeal from the United States District Court
for the Middle District of Florida
ORDER:
Justin Mertis Barber, through counsel, moves for leave to file a motion for a certificate of
appealability ("COA'') in excess of the page limit, 11th Cir. R. 22-2, in order to appeal the
dismissal of his 28 U.S.C. § 2255 motion to vacate sentence as untimely. The motion for leave
to file a COA motion in excess of the page limit is GRANTED.

Case: 19-14881

Date Filed: 06/16/2020

Page: 2 of 2

B

Case 3:16-cv-00200-HLA-JRK Document 30 Filed 11/12/19 Page 1 of 26 PageID 7489

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
JACKSONVILLE DIVISION

JUSTIN MERTIS BARBER,
Petitioner,
vs.

Case No. 3:16-cv-200-J-25JRK

SECRETARY, FLORIDA DEPARTMENT
OF CORRECTIONS, et al.,
Respondents.
ORDER
I.

INTRODUCTION

Petitioner Justin Mertis Barber initiated this case by filing
a Petition for Writ of Habeas Corpus (Doc. 1).
by counsel.

He is represented

Through an Amended Petition for Writ of Habeas Corpus

(Petition) (Doc. 6) pursuant to 28 U.S.C. § 2254, he challenges
his state court (St. Johns County) conviction for first degree
murder with a firearm.
(Response) (Doc. 23). 1

Respondents filed a Response to Petition
Petitioner’s Amended Reply to State’s

Response (Reply) (Doc. 29) followed.

As relief, Petitioner asks

The Court hereinafter refers to the Exhibits to the Appendix
(Docs. 11-1 to 11-21) as "Ex." Where provided, the page numbers
referenced in this opinion are the Bates stamp numbers at the
bottom of each page of the exhibit. Otherwise, the page number
on the document will be referenced.
1

Case 3:16-cv-00200-HLA-JRK Document 30 Filed 11/12/19 Page 2 of 26 PageID 7490

that this Court “[v]acate and set aside the plea, judgment and
sentence and if relief is not summarily granted, set the petition
for an evidentiary hearing.”
II.
It

is

Petitioner’s

evidentiary hearing.

Petition at 14.2

EVIDENTIARY HEARING
burden

to

establish

a

need

for

an

See Chavez v. Sec'y, Fla. Dep't of Corr.,

647 F.3d 1057, 1060 (11th Cir. 2011) (opining a petitioner bears
the burden of establishing the need for an evidentiary hearing
with more than speculative and inconcrete claims of need), cert.
denied, 565 U.S. 1120 (2012).

The Court finds no need for an

evidentiary hearing as the pertinent facts are fully developed in
this record or the record otherwise precludes habeas relief.

In

this case, the state court conducted an evidentiary hearing on
Petitioner’s initial Rule 3.850 motion.

As such, the Court can

"adequately assess [Petitioner's] claim[s] without further factual
development," Turner v. Crosby, 339 F.3d 1247, 1275 (11th Cir.
2003), cert. denied, 541 U.S. 1034 (2004).

Therefore, Petitioner

is not entitled to an evidentiary hearing.

Schriro v. Landrigan,

550 U.S. 465, 474 (2007).

With respect to the Petition, Response, and Reply, the Court will
refer to the page numbers assigned by the electronic filing system.
2
2

Case 3:16-cv-00200-HLA-JRK Document 30 Filed 11/12/19 Page 3 of 26 PageID 7491

III.

CLAIMS OF PETITION

Petitioner raises eleven grounds in the Petition:

(1) the

trial court erred in denying Barber’s motion for new trial when
the evidence in this purely circumstantial evidence case did not
meet the state’s burden of proof beyond a reasonable doubt; (2)
the holding of the Florida Court of Appeals that Barber could not
rely upon a finding of ultimate fact made by the trial judge at a
death penalty aggravator hearing, when that finding of fact was
based solely on trial evidence and not on any new evidence at the
aggravator hearing, to resolve Barber’s appellate challenge to the
legal

insufficiency

of

the

evidence

at

trial,

violated

the

collateral-estoppel component of the double jeopardy clause, which
requires the court to give binding effect to a prior determination
of an issue of ultimate fact under Ashe v. Swenson, 397 U.S. 436,
90 S.Ct. 1189 (1970); (3) the trial court violated Barber’s right
to due process in denying Barber’s request to interview jurors to
determine whether the jury had been tainted by improper publicity;
(4) Barber was denied effective assistance of counsel arising out
of a conflict of interest which actually prejudiced Barber because
it resulted in his taking the case to trial, when he could have
and would have entered into a plea agreement but for the advice of
counsel that the case would be won if taken to trial; (5) Barber
was denied effective assistance of counsel arising out of a failure
3

Case 3:16-cv-00200-HLA-JRK Document 30 Filed 11/12/19 Page 4 of 26 PageID 7492

to use photographic evidence the state disclosed in pretrial
discovery to the defense, that is, the very first crime scene
photos made by law enforcement, photos which clearly showed no
blood flow on the victim’s face, and which thereby directly
contradicted a key element of the state’s case; (6) Barber was
denied effective assistance of counsel arising out of a failure to
timely poll the jury concerning pretrial and trial publicity and
to adequately and timely challenge the publicity created by Maureen
Christine, the prosecutor who brought the indictment in this case;
(7) Barber was denied effective assistance of counsel arising out
of a failure to challenge the prosecutorial misconduct associated
with the prosecution’s threat to charge Shannon Kennedy with
perjury;3 (8) Barber was denied effective assistance of counsel
arising out of a failure to challenge the false testimony of
Detective Cole concerning David Shuey (that is, that there had
been no similar attacks on the beach, when in fact Shuey had
committed a similar assault at the beach); (9) Barber was denied
effective assistance of counsel arising out of a failure to object
to the failure to fully sequester the jurors but instead allowing
them access to their mobile phones; (10) Barber is actually
innocent and his conviction constitutes a manifest injustice and

3

In his Reply, Petitioner abandons ground seven.
4

Reply at 98.

Case 3:16-cv-00200-HLA-JRK Document 30 Filed 11/12/19 Page 5 of 26 PageID 7493

fundamental miscarriage of justice; and (11) the trial court
violated

Barber’s

right

to

due

process

in

summarily

denying

Barber’s 3.850 motion based on his discovery of juror misconduct
during voir dire of his trial.

Barber was denied his right to a

fundamentally fair trial guaranteed Barber by the Sixth Amendment
to the United States Constitution applicable to Barber under the
Fourteenth Amendment to the Constitution when a juror misled
counsel during voir dire in response to a line of inquiry about
law enforcement background and prior employment, and had the juror
truthfully disclosed her prior employment by the FBI Barber would
have requested his counsel to strike her from the jury and counsel
would have struck her.

Petition at 21, 31, 37, 43, 46, 49, 57-

60.
IV.
Respondents
because

Barber’s

assert
claims

SUFFICIENCY OF PETITION
the
are

Petition
included

supporting facts are in an appendix.

is
in

legally
an

insufficient

insert

Response at 38.

and

his

Respondents

complain that neither are sworn to or signed, and the document
exceeds twenty-five pages in length.

Id.

Petitioner responds

that he submitted forty-two pages of facts to satisfy the fact
pleading requirement, and that the habeas petition form for actions
pursuant to 28 U.S.C. § 2254 found on the United States District
Court

for

the

Middle

District
5

of

Florida

webpage

allows

Case 3:16-cv-00200-HLA-JRK Document 30 Filed 11/12/19 Page 6 of 26 PageID 7494

Petitioner’s use of an attachment for grounds and facts if more
pages are necessary, and in this case, the submission of extra
pages was necessary.

Reply at 17.

Additionally, the habeas form

Petition is signed by Petitioner under penalty of perjury.

Id.

Upon closer review of the Petition, the first sixteen pages
are based on the habeas form.

Petition at 1-16.

signed the Petition under penalty of perjury.

Petitioner

Id. at 16.

“Insert A,” Petitioner provides the Statement of Grounds.
17-20.

In

Id. at

The grounds and the statement of facts supporting those

grounds are in the Appendix to § 2254 Petition of Justin Mertis
Barber Statement of Supporting Facts Grounds 1-11 Inclusive.

Id.

at 21-62.
Petitioner filed his initial petition on March 1, 2016 (Doc.
1).

The Instructions for a Petition for Relief From a Conviction

or Sentence By a Person in State Custody (Petition Under 28 U.S.C.
§ 2254 for a Writ of Habeas Corpus), revised May 21, 2013, states:
“You may submit additional pages if necessary.”

It also includes

this cautionary instruction: “You must include in this petition
all the grounds for relief from conviction or sentence that you
challenge.

And you must state the facts that support each ground.

If you fail to set forth all the grounds in this petition, you may
be barred from presenting additional grounds at a later date.”
Id.

Of note, the AO 241 (Rev. 10/07) Petition Under 28 U.S.C. §
6

Case 3:16-cv-00200-HLA-JRK Document 30 Filed 11/12/19 Page 7 of 26 PageID 7495

2254 for Writ of Habeas Corpus by a Person in State Custody form
also directs a petitioner to “[a]ttach additional pages if you
have more than four grounds.
ground.”

State the facts supporting each

It warns that failure to set forth all the grounds may

result in a petitioner being barred from presenting additional
grounds at a later date.

Id.

This same language is included in

the May 21, 2013, revised habeas form.
The current Appendix of Forms4 attached to the Rules Governing
Section 2254 Cases in the United States District Courts, includes
Instructions which direct a petitioner to answer all the questions
and provides: “[y]ou may submit additional pages if necessary.”
Again, there is a cautionary instruction to include in the petition
all grounds for relief and a directive to state the facts that
support each ground.

Id.

In particular, the habeas form, number

twelve (emphasis added), states:
For this petition, state every ground on which
you claim that you are being held in violation
of the Constitution, laws, or treaties of the
United States. Attach additional pages if you
have more than four grounds. State the facts
supporting each ground.
CATUION: To proceed in the federal court, you
must ordinarily first exhaust (use up) your
available state court remedies on each ground
on which you request action by the federal
court. Also, if you fail to set forth all the
The Appendix of Forms, with Instructions, is “[a]s amended Apr.
28, 1982, eff. Aug. 1, 1982; Apr. 26, 2004, eff. Dec. 1, 2004.”
4

7

Case 3:16-cv-00200-HLA-JRK Document 30 Filed 11/12/19 Page 8 of 26 PageID 7496

grounds in this petition, you may be barred
from presenting additional grounds at a later
date.
Finally, the Rules form, after the statement of relief,
contains the signature line for the attorney and a signature line
for the Petitioner, including the same language used by Petitioner
in this case: “I declare . . . under penalty of perjury that the
foregoing is true and correct[.]”

See Petition at 16.

review, both Petitioner and his counsel signed the form.

Upon
Id. at

15-16.
After careful consideration, the Court finds no merit to
Respondents contention that the Petition is legally insufficient
because Petitioner included an insert and presented his supporting
facts in an appendix.

The instructions and the form for habeas

petitions invited Petitioner to do so.

Obviously, Petitioner has

presented more than four grounds in the Petition.

Petitioner

summarily set forth his grounds and then presented, in an orderly
and easily discernible fashion, each ground with its supporting
facts.

Although

instructions

clearly

the

Petition

allow

for

is

somewhat

additional

pages

lengthy,
and

the

warn

a

petitioner to set forth all the grounds in this petition or be
forewarned that a later submission of additional grounds may be
barred.

The Petitioner, as instructed, signed the habeas form

under penalty of perjury, and his counsel signed the form as well.
8

Case 3:16-cv-00200-HLA-JRK Document 30 Filed 11/12/19 Page 9 of 26 PageID 7497

As

such,

Petitioner

Respondents’

request

has
that

satisfied
this

Court

pleading

requirements.

summarily

dismiss

the

Petition as “legally deficient” is denied.
V.

TIMELINESS

Respondents assert the Petition is untimely.

Response at 40.

Pursuant to the Antiterrorism and Effective Death Penalty Act
(AEDPA), there is a one-year period of limitation:
(d)(1) A 1-year period of limitation shall apply to
an application for a writ of habeas corpus by a person
in custody pursuant to the judgment of a State court.
The limitation period shall run from the latest of (A) the date on which the judgment became
final by the conclusion of direct review or
the expiration of the time for seeking such
review;
(B) the date on which the impediment to
filing an application created by State action
in violation of the Constitution or laws of
the United States is removed, if the applicant
was prevented from filing by such State
action;
(C) the date on which the constitutional
right asserted was initially recognized by the
Supreme Court, if the right has been newly
recognized by the Supreme Court and made
retroactively
applicable
to
cases
on
collateral review; or
(D) the date on which the factual
predicate of the claim or claims presented
could have been discovered through the
exercise of due diligence.
(2) The time during which a properly
application
for
State
post-conviction
or
9

filed
other

Case 3:16-cv-00200-HLA-JRK Document 30 Filed 11/12/19 Page 10 of 26 PageID 7498

collateral review with respect to the pertinent judgment
or claim is pending shall not be counted toward any
period of limitation under this subsection.
28 U.S.C. § 2244(d).
Respondents,

in

their

Response,

contend

Petitioner

failed to comply with the limitation period described above.

has
In

order to properly address this contention, the Court provides a
brief procedural history.

Petitioner was charged by indictment

with first degree murder (firearm).

Ex. 1 at 1.

The state filed

a Notice of State[']s Intent to Seek the Death Penalty.
328.

Ex. 2 at

The jury returned a verdict of guilty as charged in the

indictment and made a special finding that Petitioner possessed
and discharged a firearm and inflicted death or great bodily harm
to another person.

Ex. 7 at 1206.

After a penalty phase

proceeding, the jury, by a majority vote of 8-4, advised and
recommended to the court that it impose the death penalty.

Id.

at 1214.
The trial court conducted a sentencing proceeding.
at 1952-63.

Ex. 14

Although the court found the state proved beyond a

reasonable doubt the murder was motivated at least in part for
pecuniary gain, assigning medium weight to the aggravator, and the
state proved beyond a reasonable doubt the murder was committed in
a

cold,

calculated,

and

premeditated

manner,

assigning

great

weight to the aggravator, the court found the state had not proven
10

Case 3:16-cv-00200-HLA-JRK Document 30 Filed 11/12/19 Page 11 of 26 PageID 7499

beyond

a

reasonable

doubt

the

capital

felony

was

especially

heinous, atrocious and cruel, giving it no consideration.
1957-59.

Id. at

The court gave the statutory mitigator of no prior

criminal behavior established by stipulation great weight.
at 1959.

The court gave Petitioner’s education and employment

background, a statutory mitigator, medium weight.
considered

non-statutory

mitigating

Id.

circumstances

The court

(non-violent

past – medium weight; love of family – little weight).
1959-60.
because

Id. at

It declined to give the jury recommendation great weight
Petitioner

refused

to

present

argument, other than the stipulation.
weighing

Id.

the

aggravating

and

any

mitigation

and/or

Id. at 1960-61.

After

mitigating

factors,

the

court

concluded the murder was not the most aggravated and unmitigated
of crimes for which the death penalty is reserved, and sentenced
Petitioner to life imprisonment without the possibility of parole.
Id. at 1961.
Petitioner appealed.

Ex. 29; Ex. 30; Ex. 31.

The Fifth

District Court of Appeal (5th DCA), by written opinion on January
23, 2009, affirmed.
rehearing.

Ex. 34.

Ex. 32.

On March 6, 2009, the 5th DCA denied

The mandate issued on March 25, 2009.

Ex.

35.
Petitioner filed a Petition for Writ of Certiorari.

Ex. 36.

On Monday, October 5, 2009, the United States Supreme Court denied
11

Case 3:16-cv-00200-HLA-JRK Document 30 Filed 11/12/19 Page 12 of 26 PageID 7500

the petition, rendering the conviction final.

Ex. 38.

limitation

day,

period

October 6, 2009.

began

running

the

following

The

Tuesday,

Petitioner filed his first Rule 3.850 motion on

October 4, 2010, tolling the limitation period (two days remained
in the limitation period when Petitioner filed his post-conviction
motion).

Ex. 39.

When counsel appealed the denial of the initial

Rule 3.850 motion to the 5th DCA, he apparently filed a motion to
stay the appeal and requested the appellate court relinquish
jurisdiction to the circuit court to pursue a juror interview and
litigate the claim.

Reply at 11-12.5

the 5th DCA denied relinquishment.
curiam on August 5, 2014.
September 23, 2014.

Ex. 48.

Ex. 51.

Id.

According to Petitioner,
The 5th DCA affirmed per

The mandate issued on Tuesday,

Post-conviction counsel filed the

second post-conviction motion after the 5th DCA’s decision, but
prior to the mandate being issued on September 23, 2014.6
On August 29, 2014, Petitioner filed his Amended Second Rule
3.850

motion,

misconduct.

alleging

Ex. 52.

newly

discovered

evidence

of

juror

The state responded by filing State’s Motion

Neither party provided the documents
stay, any opposition to the motion to
denial of the motion to stay. The Court
of this opinion the procedural history
this regard.
5

regarding the motion to
stay, and the 5th DCA’s
assumes for the purposes
provided is accurate in

Apparently, Petitioner filed a second Rule 3.850 motion on August
13, 2014. Response at 35.
6

12

Case 3:16-cv-00200-HLA-JRK Document 30 Filed 11/12/19 Page 13 of 26 PageID 7501

to deny Defendant’s Pending Motion Pursuant to Rule 3.850, arguing
the claim relies on inadmissible hearsay; the claim is successive
and procedurally barred; and assuming the allegations are true and
the claim is addressed on its merits, Petitioner has not made the
required showing to be entitled to an evidentiary hearing.

Ex.

53.
The trial court entered a written order denying the Amended
Second Rule 3.850 motion.

Ex. 54.

The court assumed the alleged

facts were true and the alleged “newly discovered evidence” was
not time barred, but also found Petitioner could not make the
requisite showing.

Id. at 3-4.

In its findings, the court held,

“the failure to discover the concealed facts must not be due to
want of diligence of the complaining party.

Once again, neither

Juror #161 nor the panel was ever asked about employment or
personal experience with law enforcement.”

Id. at 4.

Petitioner

appealed the denial of his Amended Second Rule 3.850 motion, Ex.
55, and the 5th DCA per curiam affirmed on February 16, 2016.
56.

The mandate issued on April 6, 2016.

Ex. 59.

Ex.

Meanwhile,

Petitioner filed his initial federal petition (Doc. 1) on March 1,
2016.
Based on the history outlined above, the Petition filed in
2016 is untimely and due to be dismissed unless Petitioner can
establish that his August 13, 2014 second Rule 3.850 motion,
13

Case 3:16-cv-00200-HLA-JRK Document 30 Filed 11/12/19 Page 14 of 26 PageID 7502

claiming newly discovered evidence, tolled the limitations period
until Petitioner filed his initial federal petition, or that he
can establish that equitable tolling of the statute of limitations
is warranted.
Petitioner’s post-conviction counsel states he memorialized
the information upon which the newly discovered evidence claim was
based by writing an email to trial counsel on December 14, 2012
(Doc. 29 at 137-39).

The trial court did not deny the first Rule

3.850 until April 18, 2013.

Petitioner did not bring the matter

of the alleged juror misconduct to the attention of the trial court
prior to its ruling on the initial Rule 3.850 motion, although he
had months to do so.
The record shows, in his Amended Second Rule 3.850 motion,
Petitioner claimed:
This evidence was newly discovered by
Barber after the direct appeal and after the
adjudication of the initial 3.850 motion, as
explained in the attached affidavit.
It is
being raised under Rule 3.850(b)(1) as newly
discovered evidence.
Counsel attempted to
raise this issue earlier during the appeal of
the denial of the initial 3.850 motion to the
Florida Fifth District Court of Appeal and
filed a motion with the Fifth District Court
of Appeal to relinquish jurisdiction to this
Court for the purpose of litigating this
claim,
but
that
motion
to
relinquish
jurisdiction was denied, therefore, this claim
is being presented at the earliest time
possible under Florida law.

14

Case 3:16-cv-00200-HLA-JRK Document 30 Filed 11/12/19 Page 15 of 26 PageID 7503

Ex. 52 at 9 (emphasis added).
Petitioner, in his Reply, submits that Florida law allows for
two years from the finality of the direct appeal (two years from
October 5, 2009, the denial of petition for writ of certiorari) to
file a Rule 3.850 motion and the motion can be amended at any time
within the two-year period so long as the state has not responded
to the motion and the court has not ruled on the motion.
at 9.

Reply

He further states that the state never responded to the

motion;7 therefore, Petitioner had until October 5, 2011 to file
an amendment to the original motion.

Id.

Finally, Petitioner

points out the circuit court expressly ordered that all amendments
be filed by October 5, 2011, the two-year deadline.

Id. at 10.

Florida law provides for an exception to the general rule a
defendant must file his motion for post-conviction relief in a
non-capital case within two years of the date on which the judgment
and sentence became final.

Rule 3.850(b), Fla. R. Crim. P.

exception

time

to

the

two-year

bar

is

the

discovery

of

An
new

evidence, the facts on which the claim is predicated were unknown
to the movant or the movant’s attorney and could not have been
ascertained by the exercise of due diligence.

Rule 3.850(b)(1)

Contrary to Petitioner’s contention, the record demonstrates the
state did respond to the Rule 3.850 motion by filing the State’s
October 29, 2012 Motion to Deny Defendant’s Pending Motion Pursuant
to Rule 3.850. Ex. 41 at 490-98.
7

15

Case 3:16-cv-00200-HLA-JRK Document 30 Filed 11/12/19 Page 16 of 26 PageID 7504

(emphasis added).

Under this exception, the claim must be made

within two years of the time the new facts were or could have been
discovered with the exercise of due diligence.

Id.

See Smith v.

State, 990 So.2d 1199, 1205 (Fla. 5th DCA 2008) (amending the
initial Rule 3.850 motion prior to resolution of the motion is the
better practice); Jones v. State, 591 So.2d 911, 913 (Fla. 1991)
(per

curiam)

(“allegations

of

newly

discovered

evidence

fall

within the exception to the two-year requirement of rule 3.850”);
Blake v. State, 152 So.3d 66, 68 (Fla. 2nd DCA 2014) (per curiam)
(“A claim of newly discovered evidence can be an exception to the
two-year time limitation in Rule 3.850(b).”).
It matters not that the circuit court did not specifically
address timeliness in rejecting Petitioner’s Amended Second Rule
3.850 motion; “[a] state court does not have to explicitly make a
timeliness ruling” before the federal court can find a postconviction motion untimely and not properly filed for tolling
purposes under AEDPA.

Stephens v. Sec’y, Dep’t of Corr., No.

5:18-cv-9-02PRL, 2019 WL 4918711, at *3 (M.D. Fla. Oct. 4, 2019).
See Jones v. Sec’y, Fla. Dep’t of Corr., 906 F.3d 1339, 1346 (11th
Cir. 2018) (recognizing the state court does not have to make a
timeliness ruling before a federal court can find the postconviction motion untimely and not properly filed pursuant to 28
U.S.C. § 2244(d)(2)), cert. denied, 139 S. Ct. 1384 (2019).
16

Case 3:16-cv-00200-HLA-JRK Document 30 Filed 11/12/19 Page 17 of 26 PageID 7505

Accordingly, this Court must undertake an examination of
timeliness and decide what the state courts would have found with
respect to timeliness.

Walton v. Sec’y, Fla. Dep’t of Corr., 661

F.3d 1308, 1312 (11th Cir. 2011) (citing Evans v. Chavis, 546 U.S.
189, 198 (2006)), cert. denied, 568 U.S. 853 (2012).

It is

important to recognize: “[w]e are applying a federal statute and
are guided by congressional intent.

We will not allow the tolling

of AEDPA’s limitations period when it is clear that the petitioner
failed to seek timely review in state court.”

Gorby v. McNeil,

530 F.3d 1363, 1368 (11th Cir. 2008) (per curiam) (citation
omitted), cert. denied, 556 U.S. 1109 (2009).
As noted by Respondents, although the trial court did not
expressly address timeliness it did find the facts could have been
ascertained at trial, and the failure to discover the facts was
due to want of diligence of the complaining party.
42-43.

Response at

The trial court concluded that, during voir dire, the

panel was never asked about employment or personal experience with
law enforcement.8

Ex. 54 at 4.

As a result, Juror #161 did not

The trial record demonstrates Patricia Steder, Juror #161, served
on the jury. Ex. 15 at 18. During voir dire, the court asked
whether the panel had any close friends or immediate family members
with experience in law enforcement.
Id. at 67.
The record
further demonstrates that when asked what she did, Ms. Steder
responded she owns a bed and breakfast. Id. at 73. Upon inquiry
by defense counsel, she said she had managed the bed and breakfast
for eight years. Ex. 16 at 127. When asked what she did before
8

17

Case 3:16-cv-00200-HLA-JRK Document 30 Filed 11/12/19 Page 18 of 26 PageID 7506

conceal her prior employment with the FBI as she was never asked
about her employment or personal experience with law enforcement.
Id. at 3.

Instead, the panel was asked if close friends or

immediate family members had experience in law enforcement.

Id.

Thus, the trial court concluded Petitioner could have discovered
the evidence at trial.

See Jones v. Sec’y, Fla. Dep’t of Corr.,

906 F.3d at 1350 (concluding untimeliness finding subsumed within
denial of relief because the petitioner could have discovered the
evidence).
In the case at bar, the evidence at issue does not qualify as
newly discovered, “[t]hat is, the asserted facts ‘must have been
unknown by the trial court, by the party, or by counsel at the
time of trial, and it must appear that defendant or his counsel

being in the bed and breakfast business, Ms. Steder responded she
was a real estate agent and builder in Virginia.
Id. at 128.
Both the state and defense counsel accepted Ms. Steder. Id. at
175. Petitioner, in his Amended Second Rule 3.850 motion claimed
he “would have requested and his counsel would have struck this
juror had he known her background with the FBI” in an
administrative capacity.
Ex. 52 at 6.
This is a curious
assertion based on post-conviction counsel’s December 14, 2012
email to trial counsel informing them that, post-trial, Timothy
Faircloth had spoken to Ms. Steder, and she said: “she ended up
being the lone hold our juror, holding out for not guilty[.]” (Doc.
29 at 137). Apparently, after an initial jury vote of 8 guilty
and 4 not guilty, Ms. Steder became the lone holdout. Id.
The
Court is deeply skeptical of Petitioner’s assertion that he would
have struck Ms. Steder, the lone holdout for “not guilty” simply
because she had worked for the FBI in an administrative or
secretarial capacity.
18

Case 3:16-cv-00200-HLA-JRK Document 30 Filed 11/12/19 Page 19 of 26 PageID 7507

could not have known them by the use of diligence.’”

Jones v.

State, 591 So.2d at 916 (quoting Hallman v. State, 371 So.2d 482,
485 (Fla. 1979)).

With the use of reasonable diligence, the

juror’s prior employment with the FBI could have been ascertained
at trial.

As such, the failure to discover the facts at trial was

due to want of diligence; therefore, Petitioner failed to reach
the threshold requirements for filing a timely motion (an exception
to the two-year time bar is the discovery of new evidence, the
facts on which the claim is predicated were unknown to the movant
and

could

not

diligence).

have

been

ascertained

by

the

exercise

of

due

As Petitioner’s second successive Rule 3.850 motion

was untimely under Florida law, his motion was not properly filed
pursuant

to

AEDPA’s

tolling

provision,

and,

therefore,

his

Petition is time-barred.
The next inquiry this Court will make is whether equitable
tolling of the statute of limitations is warranted.
record

before

the

Court,

Petitioner

has

not

Based on the

presented

any

justifiable reason why the dictates of the one-year limitation
period should not be imposed upon him.

Petitioner has failed to

show an extraordinary circumstance, and he has not met the burden
of showing that equitable tolling is warranted. 9

The record

In order to be entitled to equitable tolling a petitioner is
required to demonstrate two criteria: 1) the diligent pursuit of
9

19

Case 3:16-cv-00200-HLA-JRK Document 30 Filed 11/12/19 Page 20 of 26 PageID 7508

demonstrates he had ample time to exhaust state remedies and
prepare and file a federal petition.
Petitioner does, however, make a claim of actual innocence.
Petition at 60; Reply at 107-110.

He claims “[t]he trial evidence

itself shows that Barber is actually innocent of this crime.”
Petition at 60.

Along with claiming actual innocence, he contends

his conviction constitutes a manifest injustice and fundamental
miscarriage of justice.
Respondents

argue

procedurally defaulted.

Reply at 107.
the

claim

of

Response at 94.

actual

innocence

is

In his Reply, Petitioner

explains that he presents this claim “as a gateway claim,” not a
stand-alone claim.

Reply at 107-108.

He asks that: “this Court

review and adjudicate the merits of his underlying constitutional
claims of error despite any procedural bar.”

Id. at 109.

Habeas corpus, at its core, is an equitable remedy.
v. Delo, 513 U.S. 298, 319 (1995).

Schlup

It is important to recognize,

“[a]ctual innocence may provide a gateway for a § 2254 petitioner
to obtain a decision on the merits for an otherwise time-barred

his rights and (2) some extraordinary circumstance that stood in
his way and that prevented timely filing. Agnew v. Florida, No.
16-14451, 2017 WL 962489, at *5 (S.D. Fla. Feb. 1, 2017), report
and recommendation adopted by No. 1614451, 2017 WL 962486 (S.D.
Fla. Feb. 22, 2017). It is the petitioner's burden of persuasion,
and Petitioner has not met this burden.
20

Case 3:16-cv-00200-HLA-JRK Document 30 Filed 11/12/19 Page 21 of 26 PageID 7509

claim.”

Creel v. Daniels, No. 5:16-cv-00803-LSC-JEO, 2018 WL

2187797, at *2 (N.D. Ala. Apr. 12, 2018), report and recommendation
adopted, No. 5:16cv00803-LSC-JEO, 2018 WL 2184543 (N.D. Ala. May
11, 2018) (citing McQuiggin v. Perkins, 569 U.S. 383, 392 (2013);
Rozzelle v. Sec’y, Fla. Dep’t of Corr., 672 F.3d 1000, 1011 (11th
Cir. 2012)

(per curiam),

cert. denied, 568 U.S. 914 (2012);

Wyzykowski v. Dep’t of Corr., 226 F.3d 1213, 1218 (11th Cir.
2000)).10
To invoke the fundamental miscarriage of justice exception to
AEDPA’s statute of limitations, a habeas petitioner must make a
credible showing of actual innocence with new reliable evidence
that was not presented at trial.

See Rozzelle, 672 F.3d at 1011

(finding the alleged exception for AEDPA untimeliness requires a
petitioner (1) to present “new reliable evidence . . . that was
not presented at trial,” . . .
likely

than

not

that

no

and (2) to show “that it is more

reasonable

juror

would

have

found

petitioner guilty beyond a reasonable doubt” in light of the new
evidence) (citations omitted).

Petitioner is obliged to show “it

Of note, Respondents provided the Court with the record of the
state court proceedings, and the Court thoroughly read and
considered the record before assessing whether Petitioner made a
credible showing of actual innocence with new evidence not
available at the time of trial. See Wyzykowski, 226 F.3d at 1219
(seeking the district court’s legal analysis upon review of the
record when considering whether a petitioner has made a showing of
actual innocence).
10

21

Case 3:16-cv-00200-HLA-JRK Document 30 Filed 11/12/19 Page 22 of 26 PageID 7510

is more likely than not that no reasonable juror would have
convicted him in the light of the new evidence.”

McQuiggin, 569

U.S. at 399 (quoting Schlup, 513 U.S. at 327) (internal quotation
marks omitted).
Therefore,

in

order

to

meet

this

difficult

standard

to

overcome a procedural bar, Petitioner must present new evidence
that was not available at the time of trial, and it must be “new
reliable evidence-whether it be exculpatory scientific evidence,
trustworthy eyewitness accounts, or critical physical evidencethat was not presented at trial.”

Schlup, 513 U.S. at 324.

Instead of meeting this standard and offering new reliable evidence
in support of his actual innocence claim, Petitioner apparently
claims the trial evidence was insufficient to convict.
at 60.

Petition

He asserts his actual innocence gateway claim should be

reviewed under the standard which requires he make only a prima
facie showing that it is more likely than not that no reasonable
juror, considering all available evidence including that which was
excluded at trial (even if not newly-discovered), would have found
the

petitioner

guilty

beyond

a

reasonable

Calderon v. Thompson, 523 U.S. 538 (1998).

doubt,

referencing

Reply at 109.

It is clear, a petitioner must offer new evidence to satisfy
the actual-innocence-gateway exception.

Wroten v. Gordy, No. 16-

00406-CG-C, 2017 WL 1423945, at *2 (S.D. Ala. April 19, 2017)
22

Case 3:16-cv-00200-HLA-JRK Document 30 Filed 11/12/19 Page 23 of 26 PageID 7511

(noting McQuiggin quoted Schlup, and the Supreme Court really meant
that a petitioner must produce new evidence to invoke the actualinnocence-gateway

exception),

cert.

denied,

138

S.

Ct.

1272

(2018); McQuiggin, 569 U.S. at 395 (restricting the miscarriage of
justice exception to a severely confined category of cases in which
new evidence shows it is more likely than not that no reasonable
juror would have convicted the petitioner) (citation and quotation
omitted).

The Eleventh Circuit, in Rozzelle, 672 F.3d at 1011,

reiterated this standard: the actual-innocence-gateway exception
requires new reliable evidence.
Thus, pursuant to Schlup and its progeny,11 Petitioner must
offer new reliable evidence that was not available at the time of
trial.

Petitioner has not done so, and this proves fatal to his

gateway claim:
The lack of new evidence is fatal to his
actual innocence argument. See House v. Bell,
547 U.S. 518, 537 (2006) (“to be credible, a
gateway claim requires new reliable evidence
... that was not presented at trial”); Johnson
v. Alabama, 256 F.3d 1156, 1171 (11th Cir.
2001) (“a claim of actual innocence must be
based on reliable evidence not presented at
trial”); Moore v. Frazier, 605 Fed. Appx. 863,
868 (11th Cir. 2015) (“Moore argues only that
the
evidence
presented
at
trial
was
insufficient to convict and that the state
As Justice O’Connor explained in her concurring opinion in
Schlup, the petitioner must make a showing “in light of newly
discovered evidence of innocence.”
Schlup, 513 U.S. at 332
(O’Connor, J., concurring).
11

23

Case 3:16-cv-00200-HLA-JRK Document 30 Filed 11/12/19 Page 24 of 26 PageID 7512

court failed to instruct the jury on selfdefense. But he has presented no “new reliable
evidence” showing that it is more likely than
not that no reasonable jury would have
convicted him of malice murder”); Jackson v.
Chatman, 589 Fed. Appx. 490, 491 (11th Cir.
2014) (“Jackson must establish that in light
of new evidence it is more likely than not
that no reasonable juror would have convicted
him.... If Jackson makes that showing, he is
not necessarily entitled to habeas relief, but
he may proceed with his untimely § 2254
petition.”); Brown v. Sec'y, Fla. Dep't of
Corr., 580 F. Appx 721, 727 (11th Cir. 2014)
(“the petitioner must ‘persuade[] the [habeas]
court that, in light of the new evidence, no
juror, acting reasonably, would have voted to
find him guilty beyond a reasonable doubt’”)
(quoting McQuiggin, 569 U.S. at 386).
Creel v. Daniels, 2018 WL 2187797, at *3.
Instead

of

offering

new

reliable

evidence

that

was

not

available at the time of trial, Petitioner asserts that “absent
the constitutional claims of error in his case, it is more likely
than not that no reasonable juror would have found him guilty
beyond a reasonable doubt.”12

Reply at 109.

This does not satisfy

the Schlup standard; without production of new reliable evidence
showing that it is more likely than not that no reasonable jury

To the extent Petitioner may be asserting initial crime scene
photos that were not introduced by counsel, although counsel was
well-aware of them, constitute evidence of actual innocence, the
Court is not convinced. See Ex. 40 at 300 (testimony of counsel
that the most relevant area of the victim’s face, the left side of
her face, is in shadow). See also, Ex. 40, Exhibit C at 519-20,
Ex. 45 at 15-16, 21-22.
12

24

Case 3:16-cv-00200-HLA-JRK Document 30 Filed 11/12/19 Page 25 of 26 PageID 7513

would

have

convicted

him

of

murder,

Petitioner

may

not

satisfactorily invoke the actual-innocence-gateway exception.
Based on the record before the Court,13 Petitioner has not
presented any justifiable reason why the dictates of the one-year
imitation period should not be imposed upon him.

He has failed

to demonstrate he is entitled to equitable tolling.

He has failed

to make a credible showing of actual innocence by failing to offer
new

evidence

that

is

directly

probative

of

his

innocence.

Therefore, this Court will dismiss the Petition and the case with
prejudice pursuant to 28 U.S.C. ' 2244(d).
Accordingly, it is now
ORDERED AND ADJUDGED:
1.

The Amended Petition for Writ of Habeas Corpus (Doc. 6)

and the case are DISMISSED with prejudice.
2.

The Clerk shall enter judgment dismissing the Amended

Petition with prejudice and dismissing the case with prejudice.
3.
4.

The Clerk shall close the case.
If

Petitioner

appeals

the

dismissal

of

the

Amended

Petition for Writ of Habeas Corpus (Doc. 6), the Court denies a

In undertaking its review of the case, the Court has reviewed
the entire record before the Court, including pleadings,
appendices, and exhibits.
Although voluminous, the record is
bereft of any new evidence probative of actual innocence.
13

25

Case 3:16-cv-00200-HLA-JRK Document 30 Filed 11/12/19 Page 26 of 26 PageID 7514

certificate of appealability.14

Because this Court has determined

that a certificate of appealability is not warranted, the Clerk
shall terminate from the pending motions report any motion to
proceed on appeal as a pauper that may be filed in this case.
Such termination shall serve as a denial of the motion.
DONE AND ORDERED at Jacksonville, Florida, this 12th day of
November, 2019.

sa 10/31
c:
Counsel of Record

This Court should issue a certificate of appealability only if
a petitioner makes "a substantial showing of the denial of a
constitutional right."
28 U.S.C. ' 2253(c)(2).
To make this
substantial showing, Petitioner "must demonstrate that reasonable
jurists would find the district court's assessment of the
constitutional claims debatable or wrong," Tennard v. Dretke, 542
U.S. 274, 282 (2004) (quoting Slack v. McDaniel, 529 U.S. 473, 484
(2000)), or that "the issues presented were 'adequate to deserve
encouragement to proceed further,'" Miller-El v. Cockrell, 537
U.S. 322, 335-36 (2003) (quoting Barefoot v. Estelle, 463 U.S.
880, 893 n.4 (1983)).
Upon due consideration, this Court will
deny a certificate of appealability.
14

26

Case 3:16-cv-00200-HLA-JRK Document 31 Filed 11/13/19 Page 1 of 2 PageID 7515

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
JACKSONVILLE DIVISION

JUSTIN MERTIS BARBER,

Petitioner,
v.

Case No: 3:16-cv-200-J-25JRK

SECRETARY, FLORIDA
DEPARTMENT OF CORRECTIONS
and FLORIDA ATTORNEY
GENERAL,

Respondents.
___________________________________

JUDGMENT IN A CIVIL CASE
Decision by Court.

This action came before the Court and a decision has been rendered.

IT IS ORDERED AND ADJUDGED
that pursuant to this Court's Order entered November 12, 2019, Judgment is hereby entered
dismissing the Amended Petition with prejudice and dismissing the case with prejudice.
Date: November 13, 2019
ELIZABETH M. WARREN,
CLERK
s/TWright, Deputy Clerk

Copy to:
Counsel of Record

Case 3:16-cv-00200-HLA-JRK Document 31 Filed 11/13/19 Page 2 of 2 PageID 7516
CIVIL APPEALS JURISDICTION CHECKLIST
1.

2.

Appealable Orders: Courts of Appeals have jurisdiction conferred and strictly limited by statute:

(a)

Appeals from final orders pursuant to 28 U.S.C. § 1291: Final orders and judgments of district courts, or final orders of bankruptcy
courts which have been appealed to and fully resolved by a district court under 28 U.S.C. § 158, generally are appealable. A final
decision is one that “ends the litigation on the merits and leaves nothing for the court to do but execute the judgment.” Pitney Bowes,
Inc. v. Mestre, 701 F.2d 1365, 1368 (11th Cir. 1983) (citing Catlin v. United States, 324 U.S. 229, 233, 65 S.Ct. 631, 633, 89 L.Ed.
911 (1945)). A magistrate judge’s report and recommendation is not final and appealable until judgment thereon is entered by a district
court judge. 28 U.S.C. § 636(b); Perez-Priego v. Alachua County Clerk of Court, 148 F.3d 1272 (11th Cir. 1998). However, under 28
U.S.C. § 636(c)(3), the Courts of Appeals have jurisdiction over an appeal from a final judgment entered by a magistrate judge, but
only if the parties consented to the magistrate’s jurisdiction. McNab v. J & J Marine, Inc., 240 F.3d 1326, 1327-28 (11th Cir. 2001).

(b)

In cases involving multiple parties or multiple claims, a judgment as to fewer than all parties or all claims is not a final, appealable
decision unless the district court has certified the judgment for immediate review under Fed.R.Civ.P. 54(b). Williams v. Bishop, 732
F.2d 885, 885-86 (11th Cir. 1984). A judgment which resolves all issues except matters, such as attorneys’ fees and costs, that are
collateral to the merits, is immediately appealable. Budinich v. Becton Dickinson & Co., 486 U.S. 196, 201, 108 S.Ct. 1717, 1721-22,
100 L.Ed.2d 178 (1988); LaChance v. Duffy’s Draft House, Inc., 146 F.3d 832, 837 (11th Cir. 1998).

(c)

Appeals pursuant to 28 U.S.C. § 1292(a): Under this section, appeals are permitted from the following types of orders:
i. Orders granting, continuing, modifying, refusing or dissolving injunctions, or refusing to dissolve or modify injunctions; However,
interlocutory appeals from orders denying temporary restraining orders are not permitted.
ii. Orders appointing receivers or refusing to wind up receiverships; and
iii. Orders determining the rights and liabilities of parties in admiralty cases.

(d)

Appeals pursuant to 28 U.S.C. § 1292(b) and Fed.R.App.P.5: The certification specified in 28 U.S.C. § 1292(b) must be obtained
before a petition for permission to appeal is filed in the Court of Appeals. The district court’s denial of a motion for certification is not
itself appealable.

(e)

Appeals pursuant to judicially created exceptions to the finality rule: Limited exceptions are discussed in cases including, but not
limited to: Cohen v. Beneficial Indus. Loan Corp., 337 U.S. 541, 546, 69 S.Ct. 1221, 1225-26, 93 L.Ed. 1528 (1949); Atlantic Fed.
Sav. & Loan Ass’n v. Blythe Eastman Paine Webber, Inc., 890 F.2d 371, 376 (11th Cir. 1989); Gillespie v. United States Steel Corp.,
379 U.S. 148, 157, 85 S.Ct. 308, 312, 13 L.Ed.2d 199 (1964).

Time for Filing: The timely filing of a notice of appeal is mandatory and jurisdictional. Rinaldo v. Corbett, 256 F.3d 1276, 1278 (11th Cir.
2001). In civil cases, Fed.R.App.P. 4(a) and (c) set the following time limits:

(a)

Fed.R.App.P. 4(a)(1): A notice of appeal in compliance with the requirements set forth in Fed.R.App.P. 3 must be filed in the district
court within 30 days after the order or judgment appealed from is entered. However, if the United States or an officer or agency thereof
is a party, the notice of appeal must be filed in the district court within 60 days after such entry. THE NOTICE MUST BE
RECEIVED AND FILED IN THE DISTRICT COURT NO LATER THAN THE LAST DAY OF THE APPEAL PERIOD no additional days are provided for mailing. Special filing provisions for inmates are discussed below.

(b)

Fed.R.App.P. 4(a)(3): “If one party timely files a notice of appeal, any other party may file a notice of appeal within 14 days after the
date when the first notice was filed, or within the time otherwise prescribed by this Rule 4(a), whichever period ends later.”

(c)

Fed.R.App.P.4(a)(4): If any party makes a timely motion in the district court under the Federal Rules of Civil Procedure of a type
specified in this rule, the time for appeal for all parties runs from the date of entry of the order disposing of the last such timely filed
motion.

(d)

Fed.R.App.P.4(a)(5) and 4(a)(6): Under certain limited circumstances, the district court may extend or reopen the time to file a notice
of appeal. Under Rule 4(a)(5), the time may be extended if a motion for an extension is filed within 30 days after expiration of the time
otherwise provided to file a notice of appeal, upon a showing of excusable neglect or good cause. Under Rule 4(a)(6), the time to file
an appeal may be reopened if the district court finds, upon motion, that the following conditions are satisfied: the moving party did not
receive notice of the entry of the judgment or order within 21 days after entry; the motion is filed within 180 days after the judgment
or order is entered or within 14 days after the moving party receives notice, whichever is earlier; and no party would be prejudiced by
the reopening.

(e)

Fed.R.App.P.4(c): If an inmate confined to an institution files a notice of appeal in either a civil case or a criminal case, the notice of
appeal is timely if it is deposited in the institution’s internal mail system on or before the last day for filing. Timely filing may be shown
by a declaration in compliance with 28 U.S.C. § 1746 or a notarized statement, either of which must set forth the date of deposit and
state that first-class postage has been prepaid.

3.

Format of the notice of appeal: Form 1, Appendix of Forms to the Federal Rules of Appellate Procedure, is a suitable format. See also
Fed.R.App.P. 3(c). A pro se notice of appeal must be signed by the appellant.

4.

Effect of a notice of appeal: A district court lacks jurisdiction, i.e., authority, to act after the filing of a timely notice of appeal, except for actions
in aid of appellate jurisdiction or to rule on a timely motion of the type specified in Fed.R.App.P. 4(a)(4).

Revised 3/2011

MWmmm

Case: 19-14881

Date Filed: 07/20/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 19-14881-E
________________________
JUSTIN MERTIS BARBER,
Petitioner-Appellant,
versus
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
ATTORNEY GENERAL, STATE OF FLORIDA,
Respondents-Appellees.
________________________
Appeal from the United States District Court
for the Middle District of Florida
________________________
Before: GRANT and LUCK, Circuit Judges.
BY THE COURT:
Justin Mertis Barber has filed a motion for reconsideration, pursuant to 11th Cir. R. 22-1(c)
and 27-2, of this Court’s June 16, 2020, order denying a certificate of appealability in his appeal
from the dismissal of his underlying habeas corpus petition, 28 U.S.C. § 2254, as time-barred.
Upon review, Barber’s motion for reconsideration is DENIED because he has offered no new
evidence or arguments of merit to warrant relief.

